             OFFICE OF
             INSPECTOR
             GENERAL
             UNITED STATES POSTAL SERVICE




   Postal Vehicle Services – Scheduling
              and Staffing –
      Western Pennsylvania District

                         Audit Report




                                            August 12, 2011

Report Number NL-AR-11-005
                                                                        August 12, 2011

                                            Postal Vehicle Services - Scheduling and
                                             Staffing - Western Pennsylvania District

                                                         Report Number NL-AR-11-005



IMPACT ON:                                     local union officials and continue to
The Western Pennsylvania District’s            reduce operating costs through staff
Postal Vehicle Services (PVS)                  reductions. Further, we recommended
Operations                                     the scheduling clerk position be
                                               eliminated from the employee
WHY THE OIG DID THE AUDIT:                     complement. Finally, we recommended
Our objectives were to determine               local management issue guidance on
whether scheduling and staffing of PVS         the use of chock blocks placed next to
operations were efficient, effective, and      truck wheels by PVS motor vehicle
economical.                                    operators and provide oversight of
                                               chock block usage.
WHAT THE OIG FOUND:
The Western Pennsylvania District can          WHAT MANAGEMENT SAID:
more efficiently and effectively manage        Management agreed with the findings
PVS transportation processes and               and recommendations. Transportation
schedules, thereby reducing driver             network managers will participate in
workhours, as well as associated fuel          fleet management refresher training.
use and damage claims. In addition, the        The Eastern Area will review schedules
Postal Service could use alternate             to remove 1,252 unassigned workhours
schedules to include split days off. This      and reassess 2,056 spotter workhours.
would allow managers to more                   Management will also be entering into
efficiently staff operations and match         local negotiations with union officials to
workhours with workload. By making             continue the use of split days off. They
these changes, we estimate the                 will be eliminating the scheduling clerk
Western Pennsylvania District could            position from the employee
save about $1 million a year in labor and      complement. Management also plans to
related costs.                                 hold service talks on the use of chock
                                               blocks and will perform periodic checks
WHAT THE OIG RECOMMENDED:                      to ensure compliance.
Ensure that Pittsburgh Processing and
Distribution Center managers follow            AUDITOR COMMENT:
prescribed fleet management                    The OIG considers management’s
procedures for making PVS changes to           comments responsive to the
the schedules in a more timely fashion,        recommendations and the corrective
verify elimination of workhours from trip      actions should resolve the issues
schedules, and reassess the remaining          identified in the report.
workhours, documenting the reasons for
retaining them. We also recommended
the Western Pennsylvania District              Link to review the entire report
negotiate the use of split days off with
August 12, 2011

MEMORANDUM FOR:            JORDAN M. SMALL
                           VICE PRESIDENT, EASTERN AREA OPERATIONS

                                E-Signed by Robert Batta
                              VERIFY authenticity with e-Sign




FROM:                      Robert J. Batta
                           Deputy Assistant Inspector General
                            for Mission Operations

SUBJECT:                   Audit Report – Postal Vehicle Services – Scheduling and
                           Staffing – Western Pennsylvania District
                           (Report Number NL-AR-11-005)

This report presents the results of our audit of the Western Pennsylvania District Postal
Vehicle Services Scheduling and Staffing (Project Number 11XG026NL000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Jody J. Troxclair, director,
Transportation, or me at 703-248-2100.

Attachments

cc: Patrick R. Donahoe
    Megan Brennan
    David E. Williams
    Cynthia F. Mallonee
    Pamela S. Grooman
    Charles P. McCreadie
    Corporate Audit and Response Management
Postal Vehicle Services – Scheduling                                                                       NL-AR-11-005
 and Staffing – Western Pennsylvania District


                                             TABLE OF CONTENTS

Introduction ............................................................................................................. 1

Conclusion .............................................................................................................. 1

Excess Workhours and Associated Cost Reductions .............................................. 2

Opportunities to Further Reduce Overall PVS Driver Labor Costs .......................... 3

Other Matters – Cost Reductions for Scheduling Clerk ........................................... 3

Other Matters – Safety Concerns ............................................................................ 4

Recommendations .................................................................................................. 4

Management’s Comments ...................................................................................... 5

Evaluation of Management’s Comments ................................................................. 5

Appendix A: Additional Information ......................................................................... 6

   Background ......................................................................................................... 6

   Objectives, Scope, and Methodology .................................................................. 6

   Prior Audit Coverage ........................................................................................... 8

Appendix B: Monetary Impacts ............................................................................. 11

Workhour and Cost Reductions ............................................................................ 11

Appendix C: Consecutive and Non-Consecutive Days Off Analysis ..................... 13

Appendix D: Management’s Comments ................................................................ 14
Postal Vehicle Services – Scheduling                                      NL-AR-11-005
 and Staffing – Western Pennsylvania District


Introduction

This report presents the results of the Western Pennsylvania District Postal Vehicle
Services (PVS) Scheduling and Staffing audit (Project Number 11XG026NL000).
The U.S. Postal Service Office of Inspector General (OIG) initiated this audit
because the Western Pennsylvania District was one of the at-risk districts in our
operational risk assessment based on key transportation indicators. Our objectives
were to determine whether scheduling and staffing of PVS operations were efficient,
effective, and economical. See Appendix A for additional information about this
audit.

The U.S. Postal Service transportation network includes both nationwide
transportation between cities and major facilities as well as delivery transportation
between local Post Offices and neighborhood delivery and pick-up points. Network
transportation using Postal Service vehicles and employees is called PVS.
Management typically assigns PVS vehicles and personnel to Postal Service
network facilities, such as network distribution centers (NDCs) or processing and
distribution centers (P&DCs) in or near metropolitan areas. PVS operations are
normally conducted within 50 miles of the 154 Postal Service facilities with PVS
operations. PVS drivers travel about 150 million miles annually.

Because PVS operations are local, they are managed at the facility level under
guidance from district, area, and headquarters transportation officials. Drivers who
work within the PVS craft are represented by the American Postal Workers Union
(APWU) and the work rules governing PVS operations are covered under the
collective bargaining agreement. The existing collective bargaining agreement
requires consecutive days off for employees in most circumstances.

Conclusion

The Western Pennsylvania District can more efficiently and effectively manage PVS
transportation processes and schedules, thereby reducing driver workhours as well
as associated fuel use and damage claims. In addition, the Postal Service could use
alternate schedules to include split days off. This would allow managers to more
efficiently staff operations and match workhours with workload. By making these
changes, we estimate the Western Pennsylvania District could save about
$10 million in labor and related costs over 10 years or about $1 million annually.




                                                1
Postal Vehicle Services – Scheduling                                                           NL-AR-11-005
 and Staffing – Western Pennsylvania District


Excess Workhours and Associated Cost Reductions

Officials could more effectively and efficiently manage PVS transportation processes
and schedules at the Pittsburgh P&DC. 1 We determined that, although PVS
schedules overall were generally efficient at the facility, we found that some PVS
schedules included:

   Unassigned time when drivers were not needed for a specific trip or related
    activity.

   Underutilized trips that management could have consolidated.

We found that management conducted schedule and vehicle utilization reviews at
this location; however, they did not always change schedules in a timely fashion as
dictated by the dynamic and fluid operational transportation environment.

We concluded that the Pittsburgh P&DC could reduce PVS workhours by 3,308 and
save more than $1.4 million over 10 years without negatively affecting service. The
Postal Service would achieve more than 90 percent of the savings through
personnel workhour reductions and also realize fuel cost and damage claim savings,
as depicted in Table 1.

               Table 1. PVS Potential Savings – Funds Put to Better Use
                         (Personnel, Fuel, and Damage Claims)
                                                                                           2
                                                            FY 2013         10-Year Total
            Cost Category            FY 2012 Total          (Annual)          (FYs 2012          Percentage
                                                              Total         through 2021)
         Personnel                         $141,649          $138,683           $1,290,212               90.9
         Fuel                                 8,298             8,237               80,253               5.7
         Damage Claims                          5,209            5,130               48,679             3.4
                 Total                     $155,157          $152,050           $1,419,144              100%

Further, the actions would help achieve the fuel consumption goals outlined in the
Postal Service’s National Energy Plan by reducing fuel use for Postal Service-owned
vehicles. See Appendix B for detailed calculations.

Throughout our audit, we coordinated proposed schedule realignments with local
transportation managers. The managers reviewed each proposal with their own
assessment of operational requirements, and we discussed any differences.
Management agreed to 1,252 of the 3,308 workhours identified as unnecessary, and
we believe the remaining 2,056 workhours could produce additional savings without
jeopardizing mail on-time performance.
1
 The Pittsburgh P&DC is the only postal processing facility in the Western Pennsylvania District.
2
 The standard OIG practice for calculations of this type employs a 10-year cash flow methodology, discounted to
present value by applying factors published by Postal Service Headquarters Finance.


                                                      2
Postal Vehicle Services – Scheduling                                                          NL-AR-11-005
 and Staffing – Western Pennsylvania District


Opportunities to Further Reduce Overall PVS Driver Labor Costs

The Postal Service needs more flexibility in staffing and scheduling PVS drivers to
make the operations more efficient and reduce costs. We concluded that the Postal
Service, under the existing union bargaining agreement, must give successive days
off in certain size facilities, which results in the need for additional drivers to cover
schedules. With consecutive days off, two additional employees are needed to cover
each of the five full-time schedules. With non-consecutive days off, one additional
employee is needed to cover each of the five full-time schedules (see Appendix B for
a chart illustrating how the use of split days off results in fewer workhours). Thus, the
Postal Service has an opportunity to save more than $7.9 million over 10 years by
reducing these costs at the Pittsburgh P&DC. See Appendix B for our detailed
calculations.

Moreover, we found work rule flexibility had been previously allowed. Recognizing
the need to change work rules governing drivers due to insufficient work, on January
15, 2009, the Postal Service and the APWU entered into an agreement to relax
some of the work rules regarding motor vehicle drivers. 3 The Pittsburgh P&DC staff
was able to take advantage of these provisions, specifically relating to split days off.
However, with ratification of the new collective bargaining agreement, the MOU
became null and void.

Other Matters – Cost Reductions for Scheduling Clerk

We found the scheduling clerk position at the Pittsburgh P&DC is no longer needed.
According to Postal Service officials at headquarters, scheduling clerk positions
were no longer authorized when they installed the Vehicle Information
Transportation Analysis Logistic (VITAL 4) system nationwide. The existing
transportation supervisor at the Pittsburg P&DC has the responsibility to monitor the
schedules available in the VITAL system and make necessary changes. While these
scheduling positions were purged nationwide, Pittsburg P&DC officials continued to
fund the scheduling position locally. Eliminating this position will save more than
$700,000 over 10 years. See Appendix B for detailed calculations.




3
  This Memorandum of Understanding (MOU) allowed PVS drivers to work under modified work rules at a limited
number of pilot facilities. The MOU, in part, allowed drivers to have split days off, work eight nonconsecutive
hours within a 9-, 10-, 11-, or 12-hour day and allowed management to move employees into different positions
within the installation without penalty, as long as work was not performed in the motor vehicle craft.
4
  VITAL is a stand-alone computer system that was initiated around 2007, and allows local managers the ability
to house all information relating to the managing of PVS operations at their facilities including schedules,
employees, and facilities serviced.


                                                       3
Postal Vehicle Services – Scheduling                                                      NL-AR-11-005
 and Staffing – Western Pennsylvania District



Other Matters – Safety Concerns

During our observations of PVS vehicles parked at the Pittsburgh P&DC dock, we
found that more than 85 percent of the trailers were not using ‘chock’ blocks. Postal
Service policies require PVS drivers to approach loading docks by backing vehicles
to the door or platform space, setting the brake, shutting off the engine, and placing
the chock blocks behind specified wheels. This occurred because local officials were
not following or enforcing the policy. The chock blocks are a safety feature intended
to prevent accidental movement of the vehicle. See the following illustration:




                        Source: OIG.

                 Trailer parked at the Pittsburgh P&DC dock. Pictured is a chock block,
                               which should be placed behind the wheel to
                          prevent movement, according to Postal Service policy.


Recommendations

We recommend the vice president, Eastern Area Operations:

1. Ensure that Pittsburgh Processing and Distribution Center managers follow
   prescribe fleet management procedures for making Postal Vehicle Service
   changes to the schedules in a more timely fashion to match the fluid operational
   changes.

2. Verify the elimination of 1,252 workhours from the Postal Vehicle Service trip
   schedules assigned to the Pittsburgh Processing and Distribution Center.

3. Reassess the remaining 2,056 workhours and eliminate them as indicated by the
   reassessment, or document the reasons for retaining the workhours.

4. Negotiate the use of split days off with local union officials and continue to reduce
   operating costs through staff reductions.

5. Eliminate the scheduling clerk position from the Pittsburgh Processing and
   Distribution Center employee complement.


                                                   4
Postal Vehicle Services – Scheduling                                    NL-AR-11-005
 and Staffing – Western Pennsylvania District



6. Ensure the use of chock blocks at the Pittsburgh Processing and Distribution
   Center by Postal Vehicle Service motor vehicle operators and provide oversight
   of chock block usage.

Management’s Comments

Management agreed with our findings and recommendations. Management stated
they will conduct refresher training covering fleet management policies and
procedures. Management will also remove 1,232 unassigned workhours from PVS
schedules and agreed to reassess an additional 2,056 spotter hours. In addition,
management will conduct negotiations with the local union to discuss the continued
use of split days off, and management will be eliminating the scheduling clerk
position from the complement. Finally, management will provide PVS service talks to
employees regarding the use of chock blocks and will perform periodic checks to
ensure compliance. Management expects to complete this work by October 31,
2011. See Appendix D for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations
and the corrective actions should resolve the issues identified in the report.
Regarding local union negotiations to continue the use of split days off,
management’s actions should result in continued savings at the same level realized
under the prior agreement.

The OIG considers all of the recommendations significant, and therefore requires
OIG concurrence before closure. Consequently, the OIG requests written
confirmation when corrective actions are completed. These recommendations
should not be closed in the Postal Service’s follow-up tracking system until the OIG
provides written confirmation that the recommendations can be closed.




                                                5
Postal Vehicle Services – Scheduling                                                      NL-AR-11-005
 and Staffing – Western Pennsylvania District


                            Appendix A: Additional Information

Background

The Postal Service transportation network includes nationwide transportation
between cities and major facilities as well as delivery transportation between local
post offices and neighborhood delivery and pickup points. Network transportation
using Postal Service vehicles and employees is called PVS. Management typically
assigns PVS vehicles and personnel to Postal Service network facilities, such as
NDCs or P&DCs in or near metropolitan areas. PVS operations are normally
conducted within 50 miles of the 154 Postal Service facilities with PVS operations.
PVS drivers travel about 150 million miles annually. Because PVS operations are
local, they are managed at the facility level under guidance from district, area, and
headquarters transportation officials.




                        Source: OIG.

                Cargo vans at the Pittsburgh P&DC await mail for transport to stations.


The work rules governing PVS operations are covered under the collective
bargaining agreement. The existing agreement requires consecutive days off in
certain size facilities. Local management can negotiate with local union officials to
allow for split days off in their facilities.

Objectives, Scope, and Methodology

Our objectives were to determine whether scheduling and staffing of PVS operations
were efficient, effective, and economical. Because individual facilities control PVS
operations, we localized our audit approach. This report focuses on PVS operations
in the Western Pennsylvania District of the Postal Service’s Eastern Area. The only
processing facility in the Western Pennsylvania District that employs PVS operations
is the Pittsburgh P&DC.

During our work, we visited the Pittsburgh P&DC as well as other associate offices.
We reviewed relevant Postal Service policies and procedures, interviewed managers
and employees, and observed and photographed operations. We evaluated the type
of mail carried and considered on-time service standards. We examined the cost of


                                                  6
Postal Vehicle Services – Scheduling                                            NL-AR-11-005
 and Staffing – Western Pennsylvania District


PVS operations, including the cost of PVS personnel, fuel, and damage claims. We
also reviewed the existing collective bargaining agreement the Postal Service has
with the APWU.




                          Source: OIG.

                           PVS cargo van delivering mail to the University of
                                   Pittsburgh administrative office.


Using Postal Service computer-generated data and other records, we analyzed
118 Western Pennsylvania District driver schedules; identified 163,865 annual
workhours associated with those schedules; and evaluated individual trips and trip
load volume. We conducted the analysis to determine whether management could
reduce workhours and labor costs. As part of our review of the Western
Pennsylvania District’s PVS schedules, we analyzed driver assignments and
determined whether drivers made duplicate or unproductive trips. We also reviewed
the fuel-reduction initiatives for Postal Service-owned vehicles as contained in the
Postal Service’s National Energy Plan and determined whether our
recommendations impacted the initiatives.

We conducted this performance audit from February through August 2011 in
accordance with generally accepted government auditing standards and included
such tests of internal controls as we considered necessary under the circumstances.
Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives. We
discussed our observations and conclusions with management on June 16, 2011,
and included their comments where appropriate.

We assessed the reliability of computer-generated data by review of data compared
to observations, physical inspections, and discussions with appropriate officials. We
noted several weaknesses in the computer-generated data that limited our work. For
example, some computer records had missing data and inaccurate load volumes.
Although these limitations constrained our work, we were able to compensate by
applying alternate audit procedures, including observation, physical inspection, and
discussion with appropriate officials. We also applied conservative principles to our
workhours and cost-reduction estimates.



                                                   7
Postal Vehicle Services – Scheduling                                            NL-AR-11-005
 and Staffing – Western Pennsylvania District



Prior Audit Coverage


                                                                      Monetary
                                                           Final       Impact
                                            Report        Report         (in
                 Report Title               Number         Date       millions)
             Postal Vehicle Service
             Transportation Routes
                                          NL-AR-07-003   3/30/2007      $7.3
             – Memphis Processing
             and Distribution Center
             Postal Vehicle Service
             Transportation – Los
                                          NL-AR-07-006   9/21/2007      $4.9
             Angeles Bulk Mail
             Center
             Postal Vehicle Service
             Transportation Routes
             – San Francisco              NL-AR-08-003   3/26/2008      $10.1
             Processing and
             Distribution Center
             Postal Vehicle Service
             Transportation Routes
             – Northern Virginia          NL-AR-08-006   9/25/2008      $8.0
             Processing and
             Distribution Center
             Postal Vehicle Service
             Transportation Routes
             – Minneapolis                NL-AR-09-001   2/13/2009      $9.3
             Processing and
             Distribution Center
             Postal Vehicle Service
             Transportation Routes
                                          NL-AR-09-005   7/17/2009      $4.3
             – Philadelphia Bulk
             Mail Center
             Postal Vehicle Service
             Transportation Routes
             – Philadelphia               NL-AR-09-006   7/20/2009      $5.4
             Processing and
             Distribution Center
             Postal Vehicle Service
             Transportation Routes
             – Cardiss Collins            NL-AR-10-002   12/28/2009     $18.3
             Processing and
             Distribution Center
             Postal Vehicle Service
             Transportation Routes
             – Southern Maryland          NL-AR-10-006   7/14/2010      $4.8
             Processing and
             Distribution Center




                                                 8
Postal Vehicle Services – Scheduling                                                          NL-AR-11-005
 and Staffing – Western Pennsylvania District


              Postal Vehicle Service
              Transportation Routes
                                             NL-AR-10-007           8/4/2010           $2.8
              – Washington Network
              Distribution Center
              Postal Vehicle
              Services – Scheduling
                                             NL-AR-10-008          9/29/2010          $40.1
              and Staffing - Atlanta
              District
              Postal Vehicle Service
              Transportation Routes
              – Suburban Maryland            NL-AR-11-001           1/13/2011          $6.5
              Processing and
              Distribution Center
              Postal Vehicle
              Services –- Scheduling
              and Staffing –                 NL-AR-11-002           3/18/2011         $19.9
              Connecticut Valley
              District
              High-Risk Series:
              Restructuring the U.S.
              Postal Service to             GAO-09-937SP              7/2009            N/A
              Achieve Sustainable
              Financial Viability
              U.S. Postal Service
              Restructuring Urgently
                                             GAO-09-958T            8/6/2009            N/A
              Needed to Achieve
              Financial Viability
              U.S. Postal Service
              Financial Crisis
                                             GAO-10-538T           3/18/2010            N/A
              Demands Aggressive
              Action
              U.S. Postal Service
              Strategies and Options
              to Facilitate Progress          GAO-10-455             4/2010             N/A
              toward Financial
              Viability
              U.S. Postal Service
              Action Needed to
                                             GAO-10-624T           4/15/2010            N/A
              Facilitate Financial
              Viability


At the request of the former vice president of Network Operations, the OIG has
worked with the Postal Service to reduce PVS costs indicated in the preceding chart.
We have issued 14 audit reports that identified labor and other potential savings.
Management agreed with all of our recommendations. The methodology and
findings presented in these reports are comparable to the zero-base methodology 5
and findings in this report. In addition based on this past work, we identified areas


5
  A “zero-base” review consists of analyzing whether tasks were actually needed and, if so, analyzing how much
time the drivers needed to perform them.


                                                      9
Postal Vehicle Services – Scheduling                                      NL-AR-11-005
 and Staffing – Western Pennsylvania District


where additional flexibilities were needed in the PVS craft, which led to the audit
work that is the basis of this report.

The U.S. Government Accountability Office (GAO) issued five documents that
include reports and summaries of testimony to Senate subcommittees relating to the
Postal Service's financial crisis and recommendations needed to achieve financial
viability. The GAO found that the Postal Service’s financial condition has
deteriorated, its financial outlook is poor, and financial problems are likely to
continue unless management makes fundamental changes that address the
challenges in its current business model by better aligning costs with revenue. The
GAO concluded that making the necessary progress toward financial viability would
require the Postal Service and congress to pursue strategies and options that would:

   Reduce compensation, benefits, and other operations and network costs using
    the collective bargaining process to address wages, benefits, and workforce
    flexibility.

   Address legal restrictions and resistance to realigning Postal Service operations,
    networks, and workforce.




                                                10
Postal Vehicle Services – Scheduling                                                      NL-AR-11-005
 and Staffing – Western Pennsylvania District


                                       Appendix B: Monetary Impacts

                                       Workhour and Cost Reductions 6


                                Excess Workhour and Associated Cost Reductions
                                    Fiscal Year                    FY 2013       10-Year Total    Percentage
     Cost Category                (FY) 2012 Total               (Annual) Total    (FY 2012 to
                                                                                     2021)
Agreed
  Personnel                             $53,611                    $52,488         $488,315          34.4%
  Fuel                                    8,298                      8,237           80,253           5.7
  Damage Claims                           5,209                      5,130           48,679           3.4
Agreed Total                            $67,119                    $65,855         $617,247          43.5%
Disagreed
   Personnel                            $88,038                    $86,195         $801,897          56.5%
Disagreed Total                         $88,038                    $86,195         $801,897          56.5%

Total Zero-Based                       $155,157                   $152,050        $1,419,144        100.0%



                      Postal Service Agreed Work hour Reductions from
                           Elimination of Scheduling Clerk Position
                                 FY 2012 Total                      10-Year Total
                                                      FY 2013
              Cost Category       (Phased In                            (FYs
                                                   (Annual) Total
                                 Over 2 Years)                       2012-2021)
          Scheduling Clerk                       $40,780             $79,853        $702,116



                Postal Service Agreed Work hour Reductions from Split Days Off
                                          Conversion
                                  FY 2012 Total                     10-Year Total
                                                     FY 2013
            Cost Category          (Phased In                            (FYs
                                                  (Annual) Total
                                  Over 2 Years)                      2012- 2021)
          Split Days Off
                                    $261,075         $730,310         $7,904,843
          Conversion




6
    Totals slightly different due to rounding.




                                                           11
Postal Vehicle Services – Scheduling                                                           NL-AR-11-005
 and Staffing – Western Pennsylvania District


                               Total Work hour and Related Savings
                                             FY 2012             FY 2013            10-Year Total
              Cost Category                   Total              (Annual)               FYs
                                           (Phased In)             Total             2012-2021)
        Excess Workhours, Fuel
                                             $155,157            $152,050             $1,419,144
        and Tort Savings
        Elimination of Schedule
                                              40,780              79,853                702,116
        Examiner Position
        Split Days Off
                                              261,075             730,310              7,904,843
        Conversion
                    Total                    $457,012            $962,213            $10,026,103 7



The standard OIG practice for work hour savings calculations employs a 10-year
cash flow methodology, discounted to present value by applying the following factors
published by Postal Service Headquarters Finance.

                Rates by Type                                    Factor                   Published
    Discount Rate/Cost of Borrowing                             3.875 %                    5/7/2010
    Labor Escalation Rate                                        1.7 %                     5/7/2010
    Fuel Cost Escalation Rate                                    3.1 %                     5/7/2010
    Tort Cost Claim Escalation Rate                              2.3 %                     5/7/2010




7
  Impact Category: Funds put to better use are funds that could be used more efficiently by implementing
recommended actions.


                                                      12
Postal Vehicle Services – Scheduling                                                   NL-AR-11-005
 and Staffing – Western Pennsylvania District


                                Appendix C: Consecutive and Non-Consecutive Days Off Analysis

Fewer Drivers are Needed with Nonconsecutive Days Off - Daily schedules require replacement drivers to cover days off.
The number of drivers needed on lower-volume Sundays is a small percentage of the number needed during other days
of the week. With consecutive days off, more drivers than necessary are scheduled on Sundays, resulting in an excess
amount of unassigned or stand-by time. With non-consecutive days off, most drivers would have lower volume Sundays
off and another day during the week. With consecutive days off, two replacement drivers are needed for every five
schedules. With non-consecutive days off, one replacement driver is needed for every five schedules.
                           Consecutive Days Off Schedule – Two Replacement Drivers Needed for Every 5 Daily Schedules

                  Consecutive
     Route                              Monday        Tuesday        Wednesday       Thursday         Friday     Saturday       Sunday
                   Days Off
                                                                                                                Replacement   Replacement
      101      Saturday/Sunday           101             101             101            101            101
                                                                                                                  Driver 1      Driver 1
                                     Replacement     Replacement
      102      Monday/Tuesday                                            102            102            102          102             102
                                       Driver 1        Driver 1
                                                      Part-Time      Replacement
      103     Tuesday/Wednesday          103                                            103            103          103             103
                                                     Flex/Casual       Driver 1
                                                                                    Replacement   Replacement
      104       Thursday/Friday          104             104             104                                        104             104
                                                                                      Driver 2      Driver 2
                                                                                                   Part-Time    Replacement
      105       Friday/Saturday          105             105             105            105                                         105
                                                                                                  Flex/Casual     Driver 2

                         Nonconsecutive Days Off Schedule – One Replacement Driver Needed for Every 5 Daily Schedules
                 Non-Consecutive
      Route                              Monday         Tuesday        Wednesday       Thursday       Friday     Saturday         Sunday
                    Days Off
                                                                                                                Replacement
       101       Saturday/Sunday            101            101                101         101          101




                                                                                                                                schedules covered by
                                                                                                                  Driver 1




                                                                                                                                 part-time flexible or
                                                                                                                                 casual employees.
                                                                                                                                  Small number of
                                       Replacement
       102        Sunday/Monday                            102                102         102          102          102
                                         Driver 1
                                                       Replacement
       103       Sunday/Tuesday             103                               103         103          103          103
                                                         Driver 1
                                                                       Replacement
       104      Sunday/Wednesday            104            104                            104          104          104
                                                                         Driver 1
                                                                                      Replacement
       105       Sunday/Thursday            105            105                105                      105          105
                                                                                        Driver 1




                                                                         13
Postal Vehicle Services – Scheduling                            NL-AR-11-005
 and Staffing –                      District


                            Appendix D: Management’s Comments




                                                14
Postal Vehicle Services – Scheduling and Staffing –
 Western Pennsylvania District                             NL-AR-11-005




                                                      15
Postal Vehicle Services – Scheduling and Staffing –
 Western Pennsylvania District                             NL-AR-11-005




                                                      16
